<html>
<title> - NEXT GENERATION AIR TRANSPORTATION SYSTEM FINANCING OPTIONS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




       NEXT GENERATION AIR TRANSPORTATION SYSTEM FINANCING OPTIONS

=======================================================================

                               (109-100)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 27, 2006

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure







                    U.S. GOVERNMENT PRINTING OFFICE

30-670 PDF                  WASHINGTON : 2007
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001









             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)



                        SUBCOMMITTEE ON AVIATION

                    JOHN L. MICA, Florida, Chairman

THOMAS E. PETRI, Wisconsin           JERRY F. COSTELLO, Illinois
HOWARD COBLE, North Carolina         LEONARD L. BOSWELL, Iowa
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
VERNON J. EHLERS, Michigan           ELEANOR HOLMES NORTON, District of 
SPENCER BACHUS, Alabama              Columbia
SUE W. KELLY, New York               CORRINE BROWN, Florida
RICHARD H. BAKER, Louisiana          EDDIE BERNICE JOHNSON, Texas
ROBERT W. NEY, Ohio                  JUANITA MILLENDER-McDONALD, 
FRANK A. LoBIONDO, New Jersey        California
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          BILL PASCRELL, JR., New Jersey
HENRY E. BROWN, Jr., South Carolina  TIM HOLDEN, Pennsylvania
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
SAM GRAVES, Missouri                 JIM MATHESON, Utah
MARK R. KENNEDY, Minnesota           MICHAEL M. HONDA, California
JOHN BOOZMAN, Arkansas               RICK LARSEN, Washington
JIM GERLACH, Pennsylvania            MICHAEL E. CAPUANO, Massachusetts
MARIO DIAZ-BALART, Florida           ANTHONY D. WEINER, New York
JON C. PORTER, Nevada                BEN CHANDLER, Kentucky
KENNY MARCHANT, Texas                RUSS CARNAHAN, Missouri
CHARLES W. DENT, Pennsylvania        JOHN T. SALAZAR, Colorado
TED POE, Texas                       NICK J. RAHALL II, West Virginia
JOHN R. `RANDY' KUHL, Jr., New       BOB FILNER, California
York, Vice-Chair                     JAMES L. OBERSTAR, Minnesota
LYNN A. WESTMORELAND, Georgia          (Ex Officio)
DON YOUNG, Alaska
  (Ex Officio)

                                 (iii)





























                                CONTENTS

                               TESTIMONY

                                                                   Page
 Dillingham, Gerald, Director, Physical Infrastructure Issues, 
  U.S. Government Accountability Office, accompanied by Susan 
  Irving, Director, Federal Budget Issues, U.S. Government 
  Accountability Office..........................................     6
 Hansman, R. John, Jr., Director, MIT International Center for 
  Air Transportation, Massachusetts Institute of Technology, and 
  Chairman, FAA'S Research and Development Advisory Committee 
  (REDAC)........................................................     6
 Jewett, Ellen, Vice President and Manager, Transportation Group, 
  Infrastructure Investment Banking, Goldman, Sachs & Co.........     6
 Marron, Donald B., Acting Director, Congressional Budget Office.     6

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    28
Costello, Hon. Jerry F., of Illinois.............................    29
Oberstar, Hon. James L., of Minnesota............................    88

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Dillingham, Gerald..............................................    32
 Hansman, R. John, Jr............................................    62
 Irving, Susan...................................................    32
 Jewett, Ellen...................................................    70
 Marron, Donald B................................................    73

                       SUBMISSIONS FOR THE RECORD

 Dillingham, Gerald, Director, Physical Infrastructure Issues, 
  U.S. Government Accountability Office, reponses to questions 
  from Rep. Costello.............................................    51
 Hansman, R. John, Jr., Director, MIT International Center for 
  Air Transportation, Massachusetts Institute of Technology, and 
  Chairman, FAA's Research and Development Advisory Committee 
  (REDAC), response to a question from Rep. Costello.............    69
 Irving, Susan, Director, Federal Budget Issues, U.S. Government 
  Accountability Office, responses to questions from Rep. 
  Costello.......................................................    56
 Marron, Donald B., Acting Director, Congressional Budget Office, 
  responses to questions from Rep. Costello......................    85
















 
       NEXT GENERATION AIR TRANSPORTATION SYSTEM FINANCING OPTIONS


                     Wednesday, September 27, 2006,

        House of Representatives, Committee on 
            Transportation andInfrastructure,Subcommittee 
            on Aviation,Washington, D.C.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
room 2167, Rayburn House Office Building, the Honorable John L. 
Mica [Chairman of the subcommittee] presiding.
    Mr. Mica. I would like to call this hearing of the House 
Aviation Subcommittee to order and welcome everyone today.
    The subject of today's hearing is the Next Generation Air 
Transportation System Financing Options.
    The order of business will be as follows: we will have 
opening statements by members and, after that, we have one 
panel of witnesses, and I understand one of our witnesses is 
not able to be with us because he is ill, and that is Gerald L. 
Thompson of Jerry Thompson & Associates. So that is the only 
change in the order of business.
    With that, welcome, everyone, again, and I will start with 
an opening statement, and then I will yield to other members.
    As I said, today's hearing is going to focus on our options 
for financing our Federal Aviation Administration and, more 
specifically, the next Generation Air Transportation System, 
which is commonly referred to as NGATS. This topic, of course, 
will be the major issue in next year's reauthorization of our 
Federal aviation programs.
    As discussed at the Subcommittee's hearing on air traffic 
control modernization in June, NGATS involves a major redesign 
of our air transportation system. It will move much of the 
existing air traffic control infrastructure from earth to sky 
by replacing antiquated, costly ground infrastructure with a 
system of orbiting satellites, onboard automation, and digital 
data link communications.
    While we do not yet have an official cost estimate for 
NGATS, preliminary information indicates that FAA may need, on 
average, an additional $1 billion a year, probably for the next 
20 years, to implement NGATS, and, at the same time, keep our 
existing air traffic control system running.
    One issue that I hope to address today is whether or not 
the Aviation Trust Fund can in fact afford to provide this 
increased level of investment.
    And that is in light of the Trust Fund revenues being down 
significantly from the levels that were projected prior to the 
terrorist attacks of September 11th, 2001. The 9/11 attacks, 
combined with weak economic condition and also the element of, 
on average, lower airfares, have resulted in three consecutive 
years of declining Trust Fund revenues. They have gone from 
$10.5 billion in fiscal year 2000 to $9.3 billion in just the 
time to 2003.
    Although revenues have since been on an upward trend, they 
are still below what was once expected, and the uncommitted 
cash balance in the Trust Fund has been dramatically reduced, 
from $7.3 billion at the end of fiscal year 2001 to $1.9 
billion at the end of 2005.
    Even if the Aviation Trust Fund revenues are sufficient to 
pay for NGATS, achieving a $1 billion annual increase in FAA's 
budget would still be difficult under our current set of budget 
rules.
    This is because the aviation user charges are currently 
subject to a split budget treatment whereby the revenues from 
aviation system users come in on the mandatory side of the 
budget, but they must be spent, unfortunately, on the 
discretionary side of the budget, where they are also subject 
to some of the discretionary spending limits. Therefore, under 
current budget rules, spending from the Trust Fund must compete 
with all other discretionary spending in the Federal budget. 
That makes it very difficult to achieve the substantial budget 
increases that we are going to need for a huge program like 
NGATS.
    Rather than focusing solely on the cost of implementing 
NGATS, it is also important to recognize the cost of not doing 
so. According to the JPDO, the Joint Planning Development 
Office, by the year 2020, the cost to our economy of not 
implementing NGATS could reach as much as $40 billion a year.
    In addition to this enormous economic loss, a failure to 
implement NGATS would also have a huge price tag in terms of 
foregone productivity savings. According to some estimates, a 
failure to implement NGATS would result in FAA operating losses 
that are $29 billion to $49 billion higher over the period from 
2006 to 2025.
    Viewed in these terms, the cost of not implementing NGATS 
clearly far exceeds the cost of implementing NGATS by possibly 
more than $400 billion through 2025, a pretty dramatic amount.
    Unfortunately, in today's constrained budget environment, 
the immediate need to finance everyday operations often takes 
precedent over longer term capital investments.
    We have the same problem if you look at inline explosive 
detection systems. Despite the fact that these systems more 
than pay for themselves in productivity savings in just a few 
years, we have been unable to adopt a common sense solution 
that would provide up-front capital investment that is required 
to deploy these systems in a timely manner, realize the savings 
by eliminating personnel and antiquated systems. So this is 
sometimes a penny wise and pound foolish approach.
    In the face of budget constraints, Federal agencies have 
used a variety of methods to finance big capital asset 
projects. Two such methods that have been mentioned in the 
context of NGATS are leasing and also bonding. In addition, 
cost-based user fees that could be spent outside the 
discretionary spending limits have also been discussed.
    In preparation for next year's FAA reauthorization bill, 
when our current aviation excise taxes must either be extended 
or replaced, the FAA has called for a dialog on alternative 
ways to finance the aviation system in the future. And that 
dialog, as you know, has gone on for some months now, and at 
some point we are going to have to conclude that and take some 
action, hopefully as we begin the next session of Congress.
    The FAA believes that certain industry trends, such as 
lower airfares and the use of smaller aircraft, will also 
exacerbate the mismatch between its workload and its revenues 
in the future.
    Cost-based user fees are often mentioned as one way to link 
aviation revenues more closely to FAA's cost and potentially 
also to deal with funding. To the extent such fees can be 
linked to FAA's funding, they could provide a way to fund 
needed investments in our aviation system.
    Of course, today we will hear from a panel of witnesses 
that I believe is uniquely qualified to help us look at some of 
the pros and cons of each of these approaches to financing both 
the FAA and NGATS, its expensive capital requirements, so I 
look forward to hearing the testimony of our witnesses. I have 
made no commitments to any plan, and now I am pleased to yield 
to the Ranking Member, Mr. Costello.
    Mr. Costello. Mr. Chairman, thank you. And I thank you for 
calling this hearing today. I think all of us understand that 
the information that we are reviewing is very preliminary.
    While we have some idea of what capabilities will likely 
comprise the Next Generation Air Transportation System, such as 
precision satellite-based navigation, we do not yet have an 
enterprise architecture that fully explains the Next Generation 
System. And while we have an unofficial Administration NGATS 
capital cost estimate of approximately $15 billion, between $1 
billion and $2 billion a year for the next 10 to 15 years, we 
do not have an Administration witness here today to explain how 
they arrived at their cost estimates.
    As the Subcommittee prepares to take up the FAA 
reauthorization bill, we will need to find out whether or not 
the Aviation Trust Fund can support the Next Generation System. 
The information before us today suggests that it can. For 
fiscal year 2006, CBO estimates that receipts plus interest 
into the Trust Fund will total about $11.2 billion. The CBO 
also projects that the Trust Fund revenue will increase almost 
32 percent, to $14.8 billion in 2011, and over 71 percent, to 
$19.2 billion in 2016.
    Based on these projections, it appears that the preliminary 
$15 billion capital cost estimate for NGATS could be absorbed 
by the existing FAA financing structure, with a General Fund 
contribution that is consistent with, or even smaller than, 
recent General Fund contributions.
    This new information raises questions about the 
Administration's claims that there is a revenue crisis at the 
FAA. The Administrator, Administrator Blakey, has said that 
there is a gap between revenue going into the Trust Fund and 
FAA's cost, and that this so-called gap caused a $5.4 billion 
decline in the Trust Fund's uncommitted balance since fiscal 
year 2002. I disagree.
    First, what the Administrator calls a gap between Trust 
Fund revenues and FAA cost is actually the General Fund 
contribution. Historically, the General Fund contribution has 
been relatively low in recent years. Over the past 20 years, 
the General Fund contribution has averaged 27 percent of FAA's 
total budget. However, over the past 10 years, it has averaged 
only 20 percent.
    The American people clearly receive a tremendous benefit 
from a safe and efficient air transportation system. Therefore, 
any discussion of financing the Next Generation system must 
include a contribution from the General Fund.
    Second, the shrinking uncommitted balance is not the result 
of inadequate revenue, but inadequate revenue forecasting by 
the FAA. Under the current statutory formula, the amount drawn 
from the Trust Fund must equal FAA's forecasted receipts and 
interest into the Trust Fund for that year. For the last few 
years, FAA's forecasts have been overly optimistic and the 
discrepancy between what is drawn from the Trust Fund's 
uncommitted balance. Congress could fix this problem by 
changing the formula to link the amount appropriated from the 
Trust Fund to actual, rather than forecasted, revenue. The GAO 
has suggested this approach, and I look forward to hearing from 
the GAO witness on this issue.
    That said, I believe Congress should also review the FAA's 
tax and financing structure in the FAA's upcoming 
reauthorization bill. However, I have serious reservations with 
imposing a direct user fee. If we accept that the policy goal 
of the Congress should be to better align FAA's revenue with 
user activity, there are ways that this can be accomplished 
within the existing tax structure. By working within the 
existing tax structure, we will avoid the costly administrative 
burdens of implementing a user fee based system. Some have 
suggested that Congress should consider alternative financing 
mechanisms such as leasing or bonding. I agree that all options 
should be examined and be on the table.
    With that, Mr. Chairman, I will submit my full statement 
for the record, and I look forward to hearing from our 
witnesses today.
    Mr. Mica. Without objection, the entire statement of the 
Ranking Member will be made part of the record.
    Next we will hear from Mr. Coble.
    Mr. Coble. Mr. Chairman, I will not take the full five 
minutes.
    You indicated financing options is the order of the day. 
Every issue discussed--well, strike that. Practically every 
issue discussed on this Hill, sooner or later, involves 
financing options, today being no exception. And I appreciate 
the interest that you and the distinguished gentleman from 
Illinois have directed to the issue of Next General Air 
Transportation System's financing, and I share that interest, 
and I appreciate your all having called the hearing.
    I have two other meetings, Mr. Chairman, so I may be 
circuitously coming and going, but I think it will be a good 
hearing, and I thank you for it.
    Mr. Mica. I thank the gentleman, and thank you for the 
brevity of your statement. In fact, high above the future NGAT 
System, somewhere in the heavens there will be a special place 
for you.
    Mr. Coble. I thank you for that.
    Mr. Mica. Thank you.
    Ms. Berkley.
    Ms. Berkley. Thank you, Mr. Mica.
    Mr. Chairman, Ranking Member Costello, I thank you for 
holding this hearing on what I consider a very important topic. 
The FAA's plan for the Next General Air Transportation System 
is very ambitious. I am anxious to hear both how we could pay 
for it and how it would be integrated into our current system.
    The district that I represent is uniquely dependent on a 
safe and efficient air transportation system. McCarran 
International Airport in Las Vegas handled almost 44 million 
passengers last year, and I have no doubt that we will exceed 
that number in 2006. I am concerned about the ability of the 
FAA to handle the current volume of air traffic, which 
continues to increase yearly.
    I look forward to hearing the views of our witnesses about 
whether the FAA's plan to keep up with growth in the system is 
affordable and feasible, and I am anxious to hear your funding 
suggestions. And I thank you very much for being here.
    Thank you very much, Mr. Chairman.
    Mr. Mica. I thank the gentlelady also for her brevity.
    Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman, for calling the 
hearing. I think we can all agree it is critical for us to get 
started developing and testing and fielding the NGAT System as 
soon as possible. The system will improve safety and reduce 
operating costs for the FAA and industry. But, as you pointed 
out, it is extremely expensive and it will be very difficult 
and put a strain on our current system with an already 
overextended Trust Fund. I hope we can find a creative way to 
reauthorize the Trust Fund that will ensure sufficient 
resources to keep the current system running while we develop 
and deploy NGATS.
    And I am looking forward to hearing what our witnesses have 
to say.
    And thank you again, Mr. Chairman.
    Mr. Mica. Thank the gentleman.
    Mr. DeFazio?
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Chairman, if we look over time, we find that basically 
the General Fund contribution, that is, the support to 
aviation, the issue before us, has gone from about 48 percent 
down to 18 in 2006. I guess, one question I hope the panel 
would address is, what is an appropriate level for general 
public investment versus whatever new ideas or iteration of 
user fees or targeted taxes you are going to propose.
    Because I think there are some strong arguments to be made 
regarding the national interest here on the national airspace, 
the efficiency of the Air Transportation System and the safety 
in this Country, and particularly some new issues in that area 
post-9/11. So I would question whether 18 percent is adequate. 
And, of course, that somewhat sets the stage for what other and 
how many other revenues we are looking for, given the needs.
    Thank you, Mr. Chairman.
    Mr. Mica. I thank the gentleman.
    Mr. Graves?
    Mr. Graves. Thank you, Mr. Chairman. I too will be brief.
    I do look forward to this hearing, and all the hearings we 
are going to have, obviously, when it comes to reauthorization, 
and how we are going to fund the Next Generation System and 
modernization in general. I know there are still a lot of 
different options out there, but I do think we ought to proceed 
with some caution and figure out what it is we are going to do 
before we figure out how to fund it. I think it is a little bit 
at least getting the cart ahead of the horse, when we don't 
know exactly how much money it is that we are going to need, or 
exactly what it is that we are going to use it on.
    I think we just need to be careful as we move forward, and 
I look forward to hearing what the panelists have to say. Thank 
you.
    Mr. Mica. Thank you.
    Mr. Kuhl? Any other members with opening statements or 
remarks?
    [No response.]
    Mr. Mica. If there are no other members with opening 
statements, we will turn to our panel of witnesses and welcome 
back Dr. Gerald Dillingham, Director of Civil Aviation Issues 
with the U.S. Government Accountability Office. He is 
accompanied by Dr. Susan Irving, Director of Federal Budget 
Issues of the same office.
    We have also Dr. Donald Marron, Acting Director of the 
Congressional Budget Office; Professor John Hansman, Director 
of MIT International Center for Air Transportation and Co-
Chairman of FAA's Research, Engineering & Development Advisory 
Committee; and then Ms. Ellen Jewett, Vice President and 
Manager of the Transportation Group of Infrastructure 
Investment Banking with Goldman, Sachs.
    I would like to welcome all of our witnesses. If you have 
any additional information other than your statement, or 
lengthy information that you would like added to the record, 
just a request of the Chair would be appropriate.
    So, with that, we will welcome back Dr. Dillingham with 
GAO. Welcome, and you are recognized, sir.

   TESTIMONY OF GERALD DILLINGHAM, DIRECTOR, CIVIL AVIATION 
 ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; ACCOMPANIED BY 
SUSAN IRVING, DIRECTOR, FEDERAL BUDGET ISSUES, U.S. GOVERNMENT 
   ACCOUNTABILITY OFFICE; DONALD B. MARRON, ACTING DIRECTOR, 
 CONGRESSIONAL BUDGET OFFICE; R. JOHN HANSMAN, JR., DIRECTOR, 
MIT INTERNATIONAL CENTER FOR AIR TRANSPORTATION, MASSACHUSETTS 
    INSTITUTE OF TECHNOLOGY, AND CHAIRMAN, FAA'S RESEARCH, 
  ENGINEERING & DEVELOPMENT ADVISORY COMMITTEE (REDAC); ELLEN 
   JEWETT, VICE PRESIDENT AND MANAGER, TRANSPORTATION GROUP, 
    INFRASTRUCTURE INVESTMENT BANKING, GOLDMAN, SACHS & CO.

    Mr. Dillingham. Thank you, Chairman Mica, Mr. Costello, 
members of the Subcommittee.
    As you know, GAO has been reviewing FAA's ATC modernization 
program for this Committee for many years. Because of its size, 
complexity, and the history of schedule delays and cost 
overruns, it has been on our high-risk list since 1995. Over 
the last two years we have reported considerable improvement in 
the modernization program's ability to acquire major systems on 
time and on budget. We have also seen the effects of a cyclical 
nature of the aviation industry on the ATC system, from the 
major delays experienced throughout the system through the 
downturns just prior to and after 9/11. Today, we see a return 
of significant delays and a system under increasing stress.
    Through all of this, aviation continues to be an important 
part of the U.S. economy. Recent aviation forecasts predict up 
to a billion passengers in the system by 2015. These forecasts 
also predict that not only will there be more traditional 
aircraft entering the system, there will also be hundreds of 
very light jets, greater civil use of unmanned aerial vehicles, 
and mega aircraft such as the Airbus A380.
    The consensus of opinion is that the Nation's current ATC 
system cannot handle this predicted growth and cannot be scaled 
up to meet a possible tripling of traffic by 2025. As Chairman 
Mica stated, the JPDO has estimated that as soon as two years 
from now the difference the total flights that people want to 
fly and those that can be delivered with no new investment in 
the system would be worth about $12 billion to the economy. By 
2020, these economic losses will increase to about $40 billion 
a year.
    These are the kinds of predictions that contributed to the 
Congress establishing the JPDO to plan for the transformation 
of the ATC system to the Next Generation System. The NGATS 
transformation will be one of the Federal Government's most 
comprehensive and technically complex undertakings, and a 
preliminary estimate indicates it will also be an expensive 
undertaking.
    Regarding the cost of NGATS, Mr. Chairman, the bottom line 
here is that, at present, there is no comprehensive estimate of 
the cost of NGATS. Instead, what we have is a limited 
preliminary cost estimate developed by FAA's Research, 
Engineering & Development Advisory Committee, an estimate that 
has not been endorsed by FAA and only provides a point of 
reference.
    As the Chairman indicated in his opening remarks, the REDAC 
estimate suggests that FAA will need an average of at least $1 
billion more annually over the next 20 years than FAA's 2006 
appropriation.
    Mr. Chairman, Mr. Costello, and members of the 
Subcommittee, this estimate must be viewed within the context 
of a number of limiting factors. First, JPDO has yet to 
complete the system's enterprise architecture, which is 
critical to the development of a reliable cost estimate. 
Second, many costs, such as the cost of early technology 
development, training, and the cost that other JPDO partner 
agencies might incur, are not included. And, finally, the 
estimate is in today's dollars and does not take into account 
the effect of inflation.
    Regardless of what the final costs turn out to be, any 
discussion of how to pay for NGATS must also take into account 
the funding of near term sustainment of the current air traffic 
control system. These discussions should also consider the 
Federal Government's long-term fiscal imbalance.
    My written statement discusses the details of funding the 
current system and the transition to NGATS through the existing 
system of excise taxes and the contributions of the General 
Fund. The statement also discusses alternative funding options 
to collect revenues from the users of the system and 
implications for allowing FAA to use debt financing for capital 
projects.
    Regarding alternative options, our work indicates that the 
degree to which alternative funding options could address 
concerns about the existing system ultimately depends on the 
extent to which the contributions required from the users 
actually reflect the costs they impose on the system. Given the 
diverse nature of FAA's activities, and if Congress decides 
that an alternative is needed, we think that a combination of 
options may offer the most promise for linking revenues and 
costs. It is also true that switching to any alternative 
funding option would raise the administrative and transition 
issues, such as developing the administrative capacity to 
implement the new system.
    Regarding debt financing, although some have suggested that 
debt financing offers some advantages, there are also some 
serious implications that should be recognized. For example, 
debt financing encumbers future resources and may raise 
questions about congressional oversight. In addition, debt 
financing raises issues regarding barring costs that are 
particularly important in light of the Federal Government's 
long-term structural physical imbalance.
    Mr. Chairman, we think that all options, with their 
advantages and disadvantages, should be on the table for 
consideration. We also think that the cost side of the ledger 
should continue to be a major consideration in the discussion 
of funding ATC modernization. FAA's recent contracting out of 
flight service stations and its exploration of sharing the 
risks and costs of the development of ADSB system with the 
private sector are positive developments. GAO has also 
previously recommended that FAA needs to complete and 
institutionalize those business processes that allow it to meet 
its acquisition goals for the last two years.
    Additionally, we recommended that FAA work with Congress 
and other stakeholders to develop and implement a comprehensive 
modernization and consolidation plan for its facilities. GAO 
continues to think that actions such as these must be part of 
the funding discussion in the transformation of the FAA for the 
21st century.
    Mr. Chairman, Dr. Irving and I will be pleased to answer 
any questions that you and members of the Subcommittee may 
have.
    Mr. Mica. Thank you. We will hold questions until we have 
heard from all of the witnesses.
    I guess Susan Irving is not making a statement, but she is 
available for questions.
    Our next witness will be Donald Marron, Acting Director of 
the Congressional Budget Office.
    Welcome, and you are recognized.
    Mr. Marron. Thank you, Mr. Chairman, Congressman Costello, 
members of the Subcommittee. It is a pleasure to be here today 
to discuss the financing of new investments in the air traffic 
control system and the way spending on such investments would 
be recorded in the budget.
    Developing and deploying a new air traffic control system 
would likely require significant investments by the Federal 
Government or by entities acting on its behalf. The potential 
for such investments raises a number of important questions. 
First, to what extent might such spending fit within the 
potential resources of the airport and airway trust fund? To 
address that question, my written testimony describes one 
scenario that reflects CBO's most recent baseline budget 
estimates.
    Following rules that are established in budget law, those 
estimates assume that existing Trust Fund revenue sources are 
extended over the next 10 years, that appropriations for the 
FAA grow with inflation from the level appropriated for 2006, 
and that the share of funding from general revenues remains at 
roughly 19 percent, approximately the same level as in 2006.
    Under those assumptions, CBO estimates that uncommitted 
balances in the Trust Fund would increase from slightly less 
than $2 billion at the end of 2006 to about $19 billion at the 
end of 2016, with most of that increase occurring after 2010. 
By themselves, those projections suggest that the Trust Fund 
may have room for an additional $19 billion in spending over 
the next 10 years. Of course, whether those balances actually 
materialize will depend on the accuracy of the revenue 
estimates and the levels of funding that Congress actually 
chooses to provide.
    A second question is how investment in a new system would 
be recorded in the budget in the congressional budget process. 
Under the accounting principles that govern the Federal budget, 
budget authority and outlays should generally be recorded up 
front, when the asset is acquired and investments are made, 
regardless of how the new investments are financed. That is how 
funding for the Air Traffic Control System is currently 
handled; budget authority is recorded when appropriation laws 
are enacted and outlays are recorded when the Government makes 
actual cash payments. Outlays for capital goods, for example, 
computer systems and radar, thus occur when they are paid for, 
not over their useful life.
    Most of the Government's capital investments are recorded 
in the budget in that way because that approach provides the 
Congress with the most direct ongoing control over spending. Of 
course, that approach also requires that the full cost of 
investment projects must compete against other budgetary 
priorities.
    An issue sometimes arises as to whether that budgetary 
treatment would be different if agencies could procure capital 
assets using special financing approaches such as capital 
leases, lease purchases, or public-private partnerships in 
which non-Federal entities provide finance on behalf of the 
government. The short answer is no.
    Under such arrangements, an agency might make annual 
payments over a period of years rather than disbursing the full 
cost of the investment when it is required. Nevertheless, 
established budgetary principles require that the full cost be 
recorded up front if the Federal Government is the sole or 
dominant user of the asset. In such cases, the arrangements are 
actually a form of purchase by the Government. To ensure that 
all such purchases are treated the same way, budgetary 
principles require that all be recorded in the same manner, 
regardless of the method of financing. The only exception is 
for routine operating leases, for example, for commercial 
office space that is not constructed specifically for the 
Government.
    In considering alternative financing methods, it should 
also be noted that the least expensive form of financing is 
through the U.S. Treasury. Conventional Treasury securities are 
the goal standard of bonds because they are free from the risk 
of default and are highly liquid. Other means of borrowing 
funds, whether by creating new types of Federal bonds or 
working through private entities, all involve greater costs, 
since investors will demand higher returns and intermediaries 
will require fees.
    A third question is how Congress should allocate cost among 
taxpayers and various users of the system. From an economic 
perspective, it is generally desirable to require users of a 
system to pay for it. That way, the choices they make will take 
into account the cost of providing the service. Users of air 
traffic control services currently pay a substantial portion of 
the cost of providing those services, mostly through the ticket 
and other taxes, reflecting the fact that a large portion of 
the benefits of the system accrue to them.
    Allocating those costs or the costs of a new system 
efficiently and fairly among different types of users presents 
challenges, however. Quantifying how individual aircraft impose 
cost on air traffic control system may be difficult. Also, the 
provision of air traffic control services may entail 
substantial costs that cannot readily be allocated to a 
particular user, but that must be incurred to provide the 
services at all. The resolution of those and related issues 
will determine how efficiently air traffic control systems and 
the national airspace are used.
    Thank you. I look forward to any questions.
    Mr. Mica. Thank you.
    We will hear now from Professor John Hansman, who is 
Director of MIT International Center for Air Transportation.
    Welcome, and you are recognized.
    Mr. Hansman. Thank you, Chairman Mica and Mr. Costello and 
the rest of the members. I am a Professor of Aeronautics and 
Astronautics at MIT and also co-chair of the FAA Research & 
Development Advisory Committee.
    There is a general consensus, as has already been 
discussed, that the current air traffic control paradigm and 
the air transportation paradigm will not scale to meet future 
demands, and the next Generation Air Transportation System 
offers a coordinated national response to that. Recognizing the 
importance of NGATS, the REDAC established a working group on 
financing the Next Generation Air Transportation System, 
chaired by Mr. Jerry Thompson, who, unfortunately, is ill and 
couldn't be here today.
    The approach the working group took was to compare a 
referenced status quo scenario, basically, if we kept with the 
existing paradigm, to an NGATS scenario and considered best, 
worst, and baseline cases in a parametric analysis.
    The analysis of the NGATS scenario required the working 
group to create a model of the rollout of NGATS capabilities 
based on the best available knowledge of that system as it 
existed at the time of the analysis. The details of the report 
are in my written comments and in the working group report, but 
the bottom line can be seen in Figure 6 of my written report, 
which has already been referred to earlier today.
    In both the status quo and NGATS scenarios, the annual 
average cost over the 20 year period are in the order of $15.5 
billion for the median case. However, as an investment in the 
future, the NGATS scenario requires an up-front investment 
higher cost in the early and is expected to have cost savings 
in the out years.
    In order to estimate the FAA NGATS funding requirements, 
the working group also compared the cost estimates with the 
model of the FAA Aviation Trust Fund revenue. Assuming recent 
levels of General Fund contributions on the order of 20 
percent, as has already been mentioned by others, the model for 
the mid case has an expected shortfall of approximately $1 
billion over the next several years, until the NGATS 
operational improvements yield cost savings.
    The working group explored a number of alternatives for 
closing the near-term funding gap, including increasing the 
General Fund contribution, reduction of FAA costs. The working 
group identified approximately $500 million of potential costs, 
but they would not be realized immediately. There is an 
increase in user taxes and fees, and then financing options 
that bridge the near-term gap.
    The working group also made preliminary assessment of user 
taxes and fee approaches. No one approach was identified as 
optimal; a hybrid approach is likely. And more details are 
included in the working group report.
    Thank you.
    Mr. Mica. Thank you.
    Our last witness is Ellen Jewett. She is Vice President and 
Manager of the Transportation Group of Goldman, Sachs.
    Welcome, and you are recognized.
    Ms. Jewett. Good afternoon, Chairman Mica, Congressman 
Costello, and members of the Subcommittee. I appreciate the 
opportunity to testify before the Subcommittee today on the 
Next Generation Air Transportation System financing options. 
The NGATS initiative is a worthwhile and necessary step towards 
securing our Nation's future development in aviation, and I am 
pleased to be part of the discussion on how to properly fund 
it.
    Historically, the FAA has relied on approximately 80 
percent of its funding from the Aviation Trust Fund, which is 
set to expire by this time next year. As the FAA embarks on its 
ambitious NGATS program, as well as restructuring the Trust 
Fund, this is an optimal time to explore alternative funding 
sources.
    There are three primary capital markets options that the 
FAA could evaluate to fund NGATS. On the traditional end of the 
spectrum, the FAA could borrow from the U.S. Treasury, which 
would provide the lowest cost of capital. However, from a 
capital markets perspective, borrowing Treasuries is expensive 
in its lack of flexibility, particularly as they cannot be 
called or refinanced.
    The debt capital markets offer another solution for the 
program's funding gap. In 2005, more than $450 billion of 
municipal bonds were issued, to the total market size of $2.3 
trillion. Of the total issued last year, more than 60 percent 
were revenue bonds, or bonds that are backed by the revenues of 
a project or asset, as opposed to the taxing power of the 
Government. This robust market provides an opportunity for 
issuers to borrow against any type of revenue, including any 
user fee, without recourse, back to the governmental entities.
    A particular approach that is widely used and ensures the 
highest security to a bondholder is a securitized revenue 
structure. Under this structure, the FAA or a conduit issuer 
levies a charge which is then passed through a special purpose 
entity and is irrevocably pledged to the bondholders.
    How might this revenue securitization model be applicable 
to the NGATS program? One example is through a securitization 
of FAA revenue or user fees. How the fee is levied--ticket tax, 
passenger levy, airline charge--is less important to the 
capital markets than whether it is a stable revenue stream. A 
portion of this charge would be irrevocably pledged to a 
special purpose vehicle that would issue bonds backed by the 
expected regular collections of those fees. These collections 
would be to pay principal, interest, and other related cost. 
The special purpose vehicle would remain legally remote from 
the FAA.
    In order to ensure the involvement of all users of the 
system, a capital policy board could be set up to determine the 
scope of the capital financing plan and to enact it on behalf 
of the FAA. It is envisioned that members from all interested 
parties--airlines, airports, labor--would be represented, along 
with members of the FAA. This board would ultimately determine 
the size and strategies governing the financing and set rules 
to ensure accountability.
    There are a number of benefits to this financing structure. 
The most important to note is neither the FAA nor the U.S. 
Government is obligated to pay anything. Should the revenue 
collections fall short of necessary debt payments, there is no 
recourse back to the FAA or the Government. Additionally, there 
is no FAA operational risk. Thus, the FAA is able to transfer 
its risk and collect money up front to fund a significant 
investment in aviation infrastructure.
    The public policy implications are important. Under the 
proposed securitization structure, the FAA could separate the 
public policy determination of financing needs and capital plan 
from the execution of the financing by granting a legally 
separate oversight board the authority to control the amount 
and timing of the issuance of securities. The board would have 
the right to review and/or reject the proposed financing plan. 
Thus, users of the system who would be impacted by the 
financing decisions would have a direct role in determining if 
such a financing is necessary.
    The third and more radical alternative to solve the funding 
gap would be to explore the burgeoning public-private 
partnership market which result in effectively transferring 
assets to private operators. With a large demand for projects 
that produce long-term, steady revenue streams and, thus, long-
term, steady revenue returns from a wide variety of pension 
funds, insurance companies, and private equity funds, this 
market could provide an additional or alternative source of 
funds for the FAA.
    It is not unusual for governments to tap private investors 
for funding assistance. In fact, there are numerous examples of 
the Army or Navy leasing all of the housing on its bases to 
private developers. In the United Kingdom and Canada, private 
partnerships form the basis for management of the air traffic 
control system
    The FAA has already enacted such a program under the Pilot 
Privatization Act whereby a private entity can own and operate 
airports in the U.S. through a long-term performance based 
concession. Currently, there is one small airport in New York 
that has been privatized under this approach and, additionally, 
Chicago Midway Airport has just submitted an application to 
seek privatization under the act. This recent surge in interest 
in privatizing airports could signal that the public-private 
partnership market may be a very real and viable alternative to 
a debt financing.
    That concludes my statement, Chairman Mica. Thank you. I 
appreciate the opportunity to speak here today. I would be 
pleased to address questions you may have.
    Mr. Mica. Well, thank you all.
    We will turn to some questions, and I will start out with 
the first question for the GAO. How confident are you that 
either the FAA or the FAA's Research, Engineering & Development 
Advisory Committee has come up with NGATS costs that are 
realistic?
    Mr. Dillingham. Chairman Mica, we are not very confident 
for a number of reasons, particularly the fact that that 
critical document, that enterprise architecture, is missing. 
Additionally, there are many, many costs that are not accounted 
for----
    Mr. Mica. That enterprise architecture that you spoke 
about, it is my understanding that won't be available until the 
middle of next year. Is that your understanding?
    Mr. Dillingham. Yes, sir, that is our understanding. And in 
addition to that architecture, even though I would say that it 
is necessary, it is certainly not going to be sufficient. There 
are going to be costs associated with technology development 
which it hasn't been determined who is going to pay for it, how 
much is it going to be. There are going to be costs associated 
with training air traffic controllers and pilots for the 
transformation. There will be all kinds of costs for other 
partner agencies that have not been accounted for. So it is 
necessary, but certainly not sufficient. More work will 
certainly have to be done even when that architecture is 
available.
    Mr. Mica. One of the problems, too, that we have had is the 
estimated revenues versus the actual revenues, which the 
Ranking Member spoke about, have been sort of off base 
seriously, I guess, since 2001. They have gotten a little bit 
better this past year. What do we do about that and what do you 
attribute that to, Dillingham and then Hansman?
    Mr. Dillingham. Chairman Mica, we reported to you about 
that problem of the underestimation of forecasted resources, 
and since that time--well, a couple of things. One is part of 
that was attributed to some unforeseen external circumstances--
post-9/11, SARS--those kinds of things, but also because, as it 
turns out, their forecasting model had some problems that 
contributed to it being off to that degree. We know that they 
have attempted to address those problems. The more recent 
forecasts have been closer.
    Mr. Mica. Mr. Marron or Mr. Hansman?
    Mr. Hansman. Yes. After the forecasts went low or the 
projections went high starting really in 2001, after the 
attacks. This was partly the attacks, partly due to underlying 
changes in the air transportation industry: lower yields, use 
of small aircraft, higher frequency of service. And as Mr. 
Dillingham pointed out, the forecasts have been better in the 
past year.
    Mr. Mica. Mr. Marron?
    Mr. Marron. And just to round it out, we observed the same 
thing, that the FAA revenue misses were due to 9/11, various 
shocks to the industry, greater penetration of low cost 
carriers.
    I should say, from CBO's point of view, we also make 
projections of revenues. Until about a year ago, we based our 
projections--we, in essence, went to the FAA, gave them our own 
economic assumptions, and asked them what the projection would 
be, so we relied very heavily on their model. In the last year 
or so we have ben developing our own separate independent model 
for forecasting these revenues. At the moment, the projections 
we have look relatively similar to what the FAA has; we are a 
little lower than what they are. Over time, I suspect that 
process of having two independent cracks at this will shed 
light for both sides about the best way to estimate these 
revenues going forward.
    Mr. Mica. In May of 2005, Mr. Dillingham, you testified 
before this Subcommittee that a zero uncommitted cash balance 
in the Trust Fund would require the FAA to make significant 
spending cuts to aviation programs currently supported by the 
Trust Fund unless additional funding were appropriated from the 
General Fund. Specifically, you stated that FAA officials told 
GAO that if the uncommitted balance reaches zero, in order to 
fund the air traffic control service, FAA would have to suspend 
activities like AIP facilities and equipment and research 
accounts. Is this still your understanding about what would 
happen if we reached uncommitted balance of zero?
    Mr. Dillingham. Chairman Mica, that is still our 
understanding. FAA states that the safe movement of traffic 
would be their primary objective and all other things would 
have to fall in behind that in terms of available funding.
    Mr. Mica. Well, it is my understanding that the Highway 
Trust Fund has been allowed to operate in the negative 
uncommitted cash balance area for a number of years now without 
impacting highway programs. Anyone like to speak to sort of the 
inequity treatment of the two funds?
    Ms. Irving. Mr. Chairman?
    Mr. Mica. Yes.
    Ms. Irving. Part of that is essentially a function of how 
the Congress has set up the two trust funds. No agency can 
commit funds without budget authority. And you have set up the 
Aviation Trust Fund in a certain way, and then it requires 
appropriations to commit general revenues. The Highway Trust 
Fund cannot commit funds without budget authority either.
    The Highway Trust Fund's budget authority comes in the form 
of contract authority, which is then subject to obligation 
limits imposed by the appropriations acts. Under the SAFETEA 
legislation, that authority is adjusted to reflect actual 
receipts. You have all lived through the ROBA adjustments. 
Because of the way the program was set up, the obligations for 
these projects for which money is outlaid over a number of 
years, can be met using future tax revenues; it is a function 
of the way the two funds were set up.
    Mr. Mica. Any recommendation towards adopting a similar 
mechanism?
    Ms. Irving. No. I think there are a number of things you 
would need to consider. Fundamentally, as you know, the U.S. 
Government handles highways differently than aviation. The 
Highway Trust Fund collects revenues from users and distributes 
them to States and to projects, which are then not run or owned 
by the Federal Government. We have chosen, as a Nation, to have 
the air traffic control system be a national activity and to 
have those people be Federal employees and run by the Federal 
Government. I think that it is essentially a policy decision 
for the Congress to make.
    Mr. Mica. If we want to change that out, yes. Well, there 
are a number of questions that are raised, too, in the highway 
finance system and equity in those decisions. We now have a 
deficit of about--well, I shouldn't say a deficit, but we have 
a general revenue contribution of about $2 billion a year. And 
if we add in an average of $1 billion for NGATS, we are looking 
at substantial additional cost. And also the question is raised 
as to who should pay for that, should it be those who benefit 
from the system on some user basis or does the general taxpayer 
have the responsibility, even though they may never fly, some 
guy out in the middle of Podunk, U.S.A. be responsible for 
paying the existing cost and then a little bit more for this 
new system.
    Mr. Dillingham, any thoughts, or any of the other 
panelists?
    Mr. Dillingham. Chairman Mica, the point we are now, of 
course, the bottom line, of course, is it is a Congressional 
policy decision. But after having said that, there are probably 
lots of options, and what we have said is that probably a 
combination of things should be looked at, the pros and cons of 
a combination of things, to see how to fund the aviation 
system.
    But we also believe that there is a public interest in the 
aviation system and that that public interest should be 
supported by a contribution from the General Fund, because the 
contributions of the aviation system, it is not only for those 
who fly, but it is also for those in Podunk that also benefit 
from the system.
    Mr. Mica. One final question. I probably can't answer this. 
I looked at the chart that shows basically the cost of 
implementing the NGATS, and I guess without the system 
architecture and some of those costs we really can't tell if 
there are any--I mean, we have some estimates that we have been 
given, but you can't tell if there is considerable spikes at 
any point or if that billion is going to turn into a $3 billion 
at one point because of heavy equipment costs or whatever 
facilities expansion. So we really don't know, do we, the flow 
of the money that is going to be required?
    Mr. Dillingham. I think Professor Hansman probably can add 
to this, but our understanding, based on the estimates that we 
see, is that we talk about an average annual expenditure of 
about $1 billion, meaning--or at least we are interpreting that 
to mean that there will be probably higher costs early on in 
terms of capital development and subsequently that leveling out 
as the equipment is in fact acquired. But a point also is that 
air traffic control modernization is probably going to be with 
us for as long as we are around, because as soon as we get to 
the Next Generation, we are going to be talking about the next 
generation as well.
    Mr. Mica. Mr. Costello, I may have some more questions, but 
we will yield to other members.
    Mr. Costello. Mr. Chairman, thank you.
    Dr. Dillingham, thank you for speaking up for Podunk, 
America, but let me say that in my opening statement I agree 
with you that there are a number of people in this Country who 
may never fly, but the fact of the matter is that a safe and 
efficient aviation system is good for our economy and our 
Country, and everyone benefits from it. So I appreciate your 
comments and strongly feel that there has to be a contribution 
from the General Fund as we proceed to implement NGATS.
    Dr. Marron, let me ask a couple of questions, if I can. CBO 
projected rate of growth for the Aviation Trust Fund. What is 
the annual rate of growth above inflation, what are you 
projecting?
    Mr. Marron. Sir, it is roughly--I won't give you a specific 
number but, in essence, the flows into the Trust Fund are 
rising a little bit faster than the overall growth rate of the 
economy, so a little bit faster than inflation plus real GDP 
growth. That is primarily driven by an observation historically 
that air travel and related things seem to grow somewhat faster 
than the economy historically.
    Mr. Costello. So it would be between 2 percent and 5 
percent?
    Mr. Marron. Yes, it would be inflation plus, I think, 
somewhere in the 3-ish range.
    Mr. Costello. OK. And you attribute that to?
    Mr. Marron. Growing economy, which generates growing air 
traffic, and then the fact that historically it appears that 
air travel actually grows a little bit faster than the economy.
    Mr. Costello. CBO completed a ten-year Trust Fund 
projection and you base that--that was in April of 2006, based 
upon the FAA's F&E cost for the Next Generation System, as well 
as Vision 100, the statutory formula, as well as looking at the 
other three major accounts adjusted for inflation. And it is my 
understanding that, based upon that review, that CBO has 
estimated that the Trust Fund in fact could absorb the capital 
cost of NGATS for a general fund with the General Fund 
contribution of about 21 percent. Is that correct?
    Mr. Marron. That is correct. Let me describe a little bit, 
sort of qualitatively, how that comes about.
    Mr. Costello. Please.
    Mr. Marron. In essence we have a system which, if the 
various tax components get extended--many of them are scheduled 
to expire, but if they get extended, you have a revenue stream 
which is in essence growing with the rate of the economy and a 
little bit more. Under the conventional assumptions we use in 
constructing a baseline, the spending is assumed to grow just 
with inflation, so without real growth in it, and then you, in 
essence, have over time that the revenues are larger than the 
spending, there is room to add on some spending for, say, some 
NGATS investments--obviously, the estimates on that front are 
extremely preliminary--and there is room then, also, either to 
do more of that or to reduce what comes in from the General 
Fund or, as you described, sort of hold the General Fund 
contribution relatively constant and have that additional 
investment.
    Mr. Costello. So is that a long answer to saying that it is 
about 21 percent?
    Mr. Marron. Yes, those numbers work, but not forget the 
additional cost elements that were put in there are obviously 
very preliminary.
    Mr. Costello. Very good.
    Dr. Dillingham, actually, for you or Ms. Irving, either 
one, I understand that CBO has stated that third-party 
financing, which may include leasing and other types of 
financing, that there are some negative consequences, and I 
wonder if you might comment as to your views. Are there 
negative consequences of financing arrangements which include 
leasing and privatization?
    Mr. Dillingham. Mr. Costello, I think it is always good to 
know what your limits are. And since I know what my limits are, 
I am going to ask Dr. Irving to respond to that.
    Ms. Irving. My colleague is much too modest.
    Yes, as a number of the witnesses and as a number of you 
have stated, Treasury securities are the gold standard in the 
world. The Federal Government borrows more cheaply than any 
other enterprise. It is the least cost option to have the 
Federal Government borrow this money than to have the Federal 
Government pay someone else to borrow at their borrowing rates.
    Mr. Dillingham. But on the leasing side, if we are talking 
about an operating lease versus a capital lease, there are some 
advantages for the Government to be involved in an operating 
lease in terms of the budget scoring and the money needed up 
front and a whole lot of other issues. This is the kind of 
lease that the Government was involved in when they procured 
the WAH satellite system. It is the same kind of discussions 
that are going on now with regard to ADSB, where the Government 
would purchase a service and not be obligated to, or assume the 
risk of the development of the infrastructure and so forth. As 
long as the circumstances are such that they meet CBO, OMB, and 
congressional guidelines for an operating lease, it is 
something that we think ought to be on the table to be 
considered where appropriate.
    Mr. Costello. Dr. Dillingham, as I mentioned in my opening 
remarks, the Trust Fund's uncommitted balance has shrunk 
significantly, and due largely because of the over-optimistic 
revenue forecast. You testified before the Senate, I think, in 
March of this year and suggested a solution as to how that can 
be corrected. I wonder if you might elaborate just for the 
record.
    Mr. Dillingham. Yes, sir. At that time we suggested since 
the forecast had been off so much based on forecasting, we 
suggested that one thing that Congress could consider would be 
to look at actual revenues, as opposed to forecasted revenues. 
We also said at that point in time that that could very well 
mean less immediate available spending for FAA because the 
actuals are often smaller than the forecast and the statutes at 
this point in time say you spend what is forecasted as such.
    Mr. Costello. Very good. Last question in this round.
    Professor Hansman, is it your opinion that NGATS will 
increase productivity and drive down the FAA's operating cost?
    Mr. Hansman. I think that NGATS, if it is implemented and 
well designed--remember, this is a system which is still being 
designed and prototyped. One of the clear objectives is to 
increase the productivity. One of the reasons why the system 
doesn't scale over time is that we can't continue to cut 
sectors into smaller and smaller chunks, because we are limited 
by controller workload capability. So we will find a way to get 
more productivity out of the system. In all likelihood, it will 
be shifting some of the operational responsibility to the 
cockpits and things like that. So I think it will be more 
efficient. And if it is not more efficient, we shouldn't do it.
    Mr. Mica. Thank you.
    Mr. Ehlers?
    Mr. Ehlers. Thank you, Mr. Chairman.
    First of all, I also have to join with Mr. Costello in 
thanking Dr. Dillingham with his concern about Podunk, since 
Podunk happens to be in my district. The irony is only a mile 
and a half away from Podunk is Harvard. So, as you can see, I 
have quite a diverse district.
    A couple of different questions. And I appreciate, 
incidentally, Dr. Dillingham, your comments about there is a 
definite public interest in aviation and that substantial part 
of it has to be financed out of the General Fund. And I am 
puzzled about the constant talk about user fees and so forth. 
It seems to me that is the wrong way to go; it makes it very 
cumbersome, it gets more expensive.
    And the best analogy I have is just our ordinary automobile 
traffic. We don't charge user fees. Everyone goes through an 
intersection and has the benefit of a traffic signal. Or when 
you put up a stop sign at the end of the street, you don't 
charge a user fee to all the people who live on that street. I 
think that analogy holds for aviation. It is a bit silly to get 
that specific about the cost. And I think, because of the 
public interest, we should finance that part of the General 
Fund or out of the fuel taxes.
    A question for Mr. Hansman. In your best case NGATS 
scenario, REDAC assumes that after 2011 FAA operating costs 
will be reduced about 2 percent per year, resulting in a 25 
percent cost savings by 2025, which sounds wonderful. Just what 
assumptions go into this and how much confidence can we all 
place in these estimates of productivity savings?
    Mr. Hansman. The reason why this was done as a parametric 
analysis is because it is so preliminary. We are basically 
scoping the problem. So that is why it is the best case. So 
what we felt was that 2 percent was reasonable as a best case 
productivity improvement. We assumed that in the baseline case 
it would essentially hold operations costs constant, and the 
worst case was that the operations costs would remain at the 
current levels per flight or per operation.
    Mr. Ehlers. And are you reasonably confident that we can 
increase the productivity by that amount?
    Mr. Hansman. I am confident we can increase the 
productivity. The U.S. actually has one of the highest 
productivity air traffic control systems in the world, but 
there are clearly inefficiencies in the system and the way we 
do it is very labor intensive. So it is clear that there are 
opportunities for improvement. And if that is an objective of 
the system, it is clear to me that we can get improvements. 
Whether they will be at a 1 percent level, 2 percent level, or 
10 percent level is tough to say at this point.
    Mr. Ehlers. Actually, I agree with you. The difficulty 
comes when there is an aircraft accident with a number of 
fatalities. Immediately the outcry will be you have cut the 
staff too much. And so it is hard to judge what impact that is 
going to have.
    Mr. Hansman. But I think we have to recognize that air 
traffic controllers don't fly the airplanes. That is one of the 
notions within NGATS, is to move more of the responsibility to 
the cockpit, where you actually have better information and are 
quicker. So I think you are right, there is always political 
pressure after an accident, but we really have to think about a 
system which is scalable for the future and is efficient.
    Mr. Ehlers. Well, that can easily be done with the right 
electronic equipment and interfacing.
    Mr. Hansman. Yes.
    Mr. Ehlers. A question for Ms. Jewett. You gave a 
convincing case for using the public bond approach, but can you 
just tell me why it is better to do that than borrow from the 
United States Treasury?
    Ms. Jewett. I will give you one reason why it might be 
better. As we have all talked about U.S. Treasury being the 
lowest cost, one issue on the Treasury side, though, is the 
inability to be able to refund the bonds. If the interest costs 
became lower, in the bond market you could issue variable rate 
bonds, which are always lower cost than fixed rate, and you 
could structure a bond financing that would have possibly 
increasing debt service if there was a sense that the fees were 
going to increase.
    So there is more flexibility in the other options. A 
securitized model in today's market would really only cost a 
quarter of a point in the market relative to a U.S. Treasury, 
so I am not suggesting looking at a model that would be 
dramatically different or more expensive than what we have 
today. But Treasuries are great too.
    Mr. Ehlers. All right, thank you very much.
    I yield back the balance of my time.
    Mr. Mica. Thank you.
    Mr. DeFazio?
    Mr. DeFazio. Thank you, Mr. Chairman.
    This is an important subject, but just to get back to 
Podunk for a second, I took the liberty of Googling Podunk, and 
on Wikipedia Mr. Ehlers may want to edit it, because they don't 
list one in Michigan. They have New York, Massachusetts, a 
couple others.
    So, Vern, you ought to get in there and edit that.
    [Laughter.]
    Mr. DeFazio. I have a couple of questions that relate to 
this. I know it is hard to say, and I guess no one wants to put 
a number on what would be the appropriate level of General Fund 
contribution. Do any of you have any ideas on how we might go 
about, if we wanted to reach that conclusion, sort of 
methodologically looking at that which accrues generally to the 
society in terms of economic activity?
    For instance, in my hometown of Eugene, we have companies 
who have come there, rather large companies, who say, well in 
part we are here because we have very good access to San 
Francisco, you know we have, down in the Silicon Valley, 
another branch and, therefore, we need to be moving people back 
and forth. So, obviously, there are some pretty interesting 
second and third level sorts of benefits that accrue to a 
national integrated system that is efficient.
    So does anybody have any ideas-- I mean, since we are going 
to have this debate--next year we are going to be having some 
significant portion of debate on how much we are going to leave 
on the table for the General Fund or how much are we going to 
try and fight with the appropriators? Anybody want to give us 
an idea of how we might get there?
    Mr. Marron. Sir, I will start off so that I can be the 
first to give the weasely answer, which, of course, in part it 
is a political----
    Mr. DeFazio. You did very well with Mr. Costello, too.
    Mr. Marron.--about distribution. But that said, as a 
starting point, I would start at the other end and just point 
out that it is clear that a lot of the benefits of the system 
accrue to the people and cargo that fly. And so the starting 
point, I think, purely as an economist--leaving aside kind of 
political judgments and distributional judgments--is that 
clearly a significant portion should be borne by those direct 
beneficiaries of the system, just as we do for other types of 
products that we are able to produce in the economy without 
government intervention. And then it becomes, as you say, sort 
of a line drawing exercise of how far do you go.
    I haven't seen any good studies, myself, that would try to 
parse that out and give you ratios, I am afraid, so weasely 
answer.
    Mr. DeFazio. OK.
    Ms. Irving?
    Ms. Irving. I will give you another version, I guess, of a 
weasely answer, but also starting at the other end, one of the 
things that improved cost accounting can do is help you figure 
out something about the allocation of who imposes costs, which 
then can be--which is not the same as who benefits, but it will 
provide input as you begin to think of this balance between the 
costs imposed and the benefits received.
    The other thing you might want, when you all are talking 
among yourselves, is this is not actually a unique argument in 
the Government. When we think about funding drug approvals, it 
is not only drug manufacturers who benefit from a strong FDA, 
but those of us--I am old--who did not take thalidomide. It is 
not only meat producers who benefit from meat inspection, but 
me when I grocery shop. So there is some balancing, I think, 
between, but if you can learn what costs are imposed by whom 
and then start from there, you may have a head start in your 
discussion about how much you believe should be taken from the 
collective to be used for the safety.
    Mr. DeFazio. Of course, you have just opened a bit of 
another issue there, which is how we attribute the benefits 
received. Mr. Lapinski and I went through an exercise four or 
five years ago where we invited a whole host of experts in to 
breakfast meetings from different sectors to talk about that, 
and you get a different answer from a point-to-point carrier 
than a hubbed carrier in terms of how one should assess certain 
costs on passengers and, I mean, what the benefits are, I mean, 
is it harder for an air traffic controller to deal with a 
commuter flight at lower elevations and that has frequent 
landings or a longer transcontinental flight, those sorts of 
things.
    Ms. Irving. It is interesting, because I think of that as 
part of the costs imposed, and that is some of the stuff my 
colleague talked about. Benefits is that I would suggest that 
the safety improvements on the airlines, for instance, benefit 
not only those on the airline, but those into whose homes the 
airlines do not crash.
    Mr. DeFazio. Right.
    Ms. Irving. So that is part of the balancing act I think 
you are dealing with.
    Mr. DeFazio. Right.
    Mr. Dillingham. Mr. DeFazio, maybe not helpful immediately, 
but certainly an issue that comes up continuously, the last 
time the Committee had a hearing on small community air 
service, it comes up constantly in terms of the economic 
benefit that airline service brings to the communities, and 
each time we are asked to go out and try and quantify that, we 
find the studies don't hold up. We find that the information is 
just not there. So something in the future for almost every 
district that has a small air service is to really work towards 
developing that kind of information that will add up to and 
support the notion of the economic benefits of having an 
airline come to those small communities, and medium-sized 
communities.
    Mr. DeFazio. Yes, sir.
    Mr. Hansman. These are just a few thoughts. I actually have 
a doctoral student who is attempting to correlate the economic 
effect of air transportation sort of in the general sense. We 
know that there is a correlation. We actually don't know what 
is cause and what is effect. I think that when you think about 
this air transportation system, it is important to separate out 
the air traffic control functions from the infrastructure 
functions, because the air traffic control benefit is really 
the traffic cop, OK? It is organizing the traffic; it is an 
efficiency benefit versus the access issue.
    The other thing is if you look at the U.S. in general, we 
have a society which has clearly become dependent on air 
transportation, and that is why you touch Podunk, because it is 
not just the travel, but it is the just-in-time inventory, it 
is all kinds of things that permeate through the system. And 
you can actually see diffusion of the U.S. population into 
regions which have good air service. So I think that there is 
clearly a benefit to the population at large, and it is 
important not to overly think about the intermediates or the 
operators who really think about who is getting the real 
benefit of having that infrastructure.
    Mr. DeFazio. And if the Chairman is successful in doing 
away with Amtrak, then we will be even more dependent upon--no, 
I didn't mean that, Mr. Chairman.
    Mr. Chairman, one more question here.
    I am a bit puzzled by the JPDO projections on the costs to 
the economy, and if anybody here can sort of--because it says 
here $12 billion in 2008, so on and so on, in terms of foregone 
opportunity, I guess. I mean, it says difference between demand 
for air travel and the total flights that could be delivered 
with no new investment.
    I am just puzzled by that number. I mean, if we are looking 
at $12 billion in 2008, that would imply that we probably are 
seeing foregone revenues today, or economic activity. I mean, I 
am not aware that the system is that constrained today. Can 
anybody speak to how JPDO came up with these numbers, and how 
they seem so large and go up so quickly?
    Mr. Hansman. I don't remember the details, so I will just 
give you my impression. We have an infrastructure which is 
starting to get to capacity limitations. I believe a lot of 
that effect are capacity constraints. I think there are also 
environmental and other costs that are put into it.
    And the way I believe they modeled it was to project the 
unconstrained demand, to look at the impact of the constraints, 
and then to value, by some measure, the travel that wasn't 
accomplished or the economic activity that wasn't accomplished.
    Mr. DeFazio. OK, so it is kind of a blue sky thing, like if 
everybody could just take off and fly whatever route they 
wanted to get wherever they wanted to go without any 
interference by air traffic control----
    Mr. Hansman. I believe it is a projection. And then if you 
start looking at the fact that we can't basically fly more 
airplanes into LaGuardia then we currently enable, that becomes 
a constraint. And there is an interesting question because does 
that activity not exist or does it deflect to other regions? 
And the real issue may not be a loss of overall activity, but a 
deflection to other places either in the U.S. economy or, more 
worringly, to other nations. So as our system becomes 
inefficient, then people will start locating in other locations 
because they are more efficient.
    Mr. DeFazio. OK, thank you.
    Thank you, Mr. Chairman.
    Mr. Mica. Just for the record, the Chairman is a strong 
advocate of long distance national rail service and an 
extremely strong advocate of high-speed rail service. He is, 
however, in opposite of the Soviet style current Amtrak 
operation.
    [Laughter.]
    Mr. Mica. Ms. Norton.
    Ms. Norton. No questions.
    Mr. Mica. Thank you for your brevity, Ms. Norton.
    A second round.
    I just want to follow up on the savings issue. Right now I 
understand the cost is $14 billion to run our FAA system, full 
system, about $2 billion general revenue. Just project this out 
and we say it was going to cost us about $20 billion to run it 
we will just say by 2025. And I have heard that there could be 
as much as a 20 percent cost savings by 2025. Does that mean 
that the cost to operate, just taking those ballpark figures, 
could be as low as $15 billion? Would that be a net savings in 
dollars or would it just be in operational efficiencies, or 
what? Mr. Hansman?
    Mr. Hansman. Yes. It would be net savings in dollars. And, 
again, I apologize. I took a heat. I didn't do the calculation, 
but they are in 2005 dollar, so they are not inflated dollars. 
But the NGATS projection out in 2025 would be--the total NGATS 
cost to the FAA would be----
    Mr. Mica. Would it be your estimate also that we can either 
be level or reducing the number of personnel? Now, this system 
is based on the highest technology. We are going to be able to 
sight planes with unprecedented precision. We will have 
technology both on the ground, in the plane, and satellite-
based that will give us unprecedented ability to track, to 
locate with redundant systems. So we could end up with net 
fewer personnel.
    Mr. Hansman. There would clearly be fewer personnel per 
operation. Remember, the number of flights goes up too, so you 
have to look at which dominates.
    Mr. Mica. Right. We are going to have more flights, but 
greater efficiencies in operation, greater accuracy, too, in 
pinpointing the location of the aircraft, both on the ground, 
en route, etc.
    Mr. Hansman. And, hypothetically, because of that, you get 
some environmental benefits; you can reduce the noise impact 
around airports, so you get benefits from there----
    Mr. Mica. Fuel.
    Mr. Hansman. You will get fuel benefits. One of the things 
that is probably under-representative--it is implicit in 
efficiency--is within NGATS the things that you get in terms of 
efficiency in environmental efficiency are also a fuel savings. 
So, hypothetically, you will get some benefit.
    Mr. Mica. And what about some ground-based systems now that 
are necessary to bring planes in in bad weather or inclement 
conditions? With this new technology, it won't be as necessary 
to be putting all those bucks into some of those system as 
opposed to this system, or will it be necessary for redundant 
system to continue building both those and having this in 
place?
    Mr. Hansman. You will need some level of redundancy. You 
will clearly be able to reduce the level of ground redundancy. 
One of the problems with a lot of our ground facilities, and 
one of the reasons why we have high costs is because they are 
expensive to keep calibrated. If they are miscalibrated--if you 
have an ILS that is miscalibrated, you have people flying into 
hills. So you can't allow that.
    So we spend a lot of money calibrating that. Some of these 
systems will be more cost effective from a maintenance 
standpoint. There will still be costs on the ground, so even if 
you have a GPS-based approach system, you are still going to 
have lights on the airport and communications facilities, and 
things like that.
    Mr. Mica. In addition to its ineptness in running passenger 
rail system in the United States through a quasi-governmental 
entity, I found, in my short 13.9 years on this Committee, that 
one thing the Government doesn't do very well is R&D of high 
tech systems, at least through FAA. It is just a horrendous 
record of cost overruns, inability to procure next generation 
anything.
    Mr. Dillingham, and maybe Mr. Hansman, how do we avoid 
that? Now, we are looking at anew high tech system. Again, I 
sat on this Committee as a freshman somewhere down on that 
bottom pew, and heard people telling us that this next 
development project is right around the corner, just give us a 
few more billion. Then they would come back in two years: just 
give us a few more billion, it is around the corner.
    And the private sector, in the meantime, because they 
changed the specs, they tweaked the acquisition, the ineptness 
and the time period it takes to procure anything through the 
FAA system in the past just ended up having the private sector 
would develop technologies that would be far and above what we 
had even come close to achieving. And I have helped stop some 
of that. I call it the dog chasing its tail.
    This is an expensive system, it is a next generation. We 
will have some technologies we don't have now. How do we avoid 
repeating those same mistakes? Dillingham, Hansman?
    Mr. Dillingham. Chairman Mica, the story that you just told 
is a story that we have been telling for almost two decades now 
about procurement and acquisition at FAA. The other part of the 
story is that Congress did act on this project and established 
the ATO as a performance-based organization, and as a part of 
that mandated that it operate in a more business-like fashion, 
that it in fact address those issues of cost overruns and 
schedule delays, and at least for the last two years, for the 
first time in recent history, FAA is in fact meeting its cost 
and schedule goals for acquisition of major systems. The 
question becomes now, was this a flash in the pan or do we have 
a way to institutionalize that this continues?
    Secondly, we have testified before you before and suggested 
that one of the missing elements for FAA is do they have the 
expertise to acquire and manage such a very complicated 
undertaking as this. And we have suggested that they consider--
and FAA has agreed to consider--employing a lead systems 
integrator or employing the expertise that is dedicated to FAA, 
and not dedicated to its own ends, to make sure that what you 
refer to or what we refer to as requirements creep and things 
like that are minimized. So we are hopeful.
    Mr. Mica. Well, this is a big concern. Also, everybody has 
been polite, sort of working together. At some point some hard 
decisions have to be made, and I think somebody has to be in 
charge with the ability to bring--now you are going to be 
dealing with DoD, NASA, DHS, and other agencies who all have 
their turf, who all have their agendas, but somebody has to be 
in charge of the thing and make decisions with milestones and 
deadlines and accountability, as we have learned the hard way 
through our FAA acquisition. Would you agree with that?
    Mr. Dillingham. Absolutely. And not only somebody has to be 
in charge, but whoever is in charge has to transcend the 
administrations, has to transcend the secretaries that are on 
the decision-making bodies, because this is a multi-year, many 
year operation. So, again, that is why we say that cultural 
shift that is going on plus whatever systems are in place that 
have made it work well for the last two years needs to be 
attended to, and the buck has to stop someplace. It is not 
clear to us that there is an absolute end in JPDO as to who is 
in charge right now.
    Mr. Mica. Exactly. I mean, I think Marian Blakey and Russ 
Chu have done their part, but, again, we are involved in low-
hanging fruit at this stage. But to make this really happen, 
somebody is going to have some clout, some teeth, and some 
ability to transcend just a limited period in time and space.
    Mr. Hansman, did you have anything?
    Mr. Hansman. Yes. I agree. I think this is a tremendous 
challenge. I have concerns about how you actually do it, 
particularly as a multi-agency involvement, how do you manage 
through this. One of the reasons why it is hard to do major 
modernization at the FAA is it is a big system. We have one of 
the biggest systems in the world. It is perceived as a safety 
critical system, so that, if someone doesn't like what is going 
on, they just raise the safety issue. So it is a real 
challenge. It is going to require leadership and a structure 
that has the type of forcing function that was discussed.
    Mr. Mica. Well, the other thing, too, riding on this that 
we haven't even talked about today is our standing in sort of 
dominating or being the premier airspace aviation system in the 
world. We skip a few beats here----
    Mr. Hansman. So, interestingly----
    Mr. Mica. We will be looking at----
    Mr. Hansman. The Australians are actually moving pretty 
quick, because they have a smaller system that they have 
control over. So it has been an interesting case that they are 
often leading the technology. They are the guys putting 
automatic dependant surveillance in already. So I think that 
that is a challenge.
    Mr. Mica. We haven't really gotten into the consequences 
for the U.S. falling behind, which would be horrible.
    Mr. Costello had another question.
    Mr. Costello. Final question.
    Ms. Jewett, let me ask you. In your testimony you talk 
about financing options and you talk about the FAA or a 
conduit. Let me specifically ask you on page 2 you say that: 
``There are a number of benefits to this financing structure. 
The most important to note is that neither the FAA nor the US 
Government is obligated under this structure to pay anything 
other than the transferring the pledged revenue collections. 
Should the revenue collections fall short of the necessary debt 
payments, there is no recourse back to the FAA or the 
Government.'' It sounds like a deal that no one could refuse.
    Ms. Jewett. Too good to be true?
    Mr. Costello. So there is no obligation on the part of the 
FAA or the American taxpayers if we set up this conduit and 
revenue falls short?
    Ms. Jewett. If you have created this capital policy board 
that directs the special purpose vehicle who is receiving, 
whether it is the ticket tax, the General Fund money, a user 
fee, whatever it is, and the obligation in the securitized 
model is just on whatever revenues come in to this box, if you 
will, of money, if for some reason the policy board hasn't 
directed an increase in user fees, say, or if the ticket taxes 
don't come in at the expected amount, that is the risk that the 
bondholder bears, the person who bought the bonds.
    Mr. Costello. Well, the person who bought the bonds, but, 
of course, we have a system here that, if in fact is 
implemented, we have to keep it running. And as I said in my 
opening comments, I am not opposed to looking at all financing 
options and putting them on the table, but I have had an 
experience in dealing with some infrastructure where there were 
entities who operated and collected fees, bonds were sold, the 
revenue did not cover the cost of operations, and both the 
State of Illinois and the State of Missouri had to step in, pay 
off the bonds, take over both of these structures, maintain it, 
and they continue to run it to this day.
    So I just want to be clear on this. We could have closed 
the bridges down and said we will shut the bridges between 
Illinois and Missouri down because they are going into default 
on the bonds, but that, of course, would not be in the interest 
of the region or the American taxpayers. And if in fact we set 
up a system here, if it is a conduit, if it is some other type 
of a structure, in the end, the taxpayer is responsible for it 
if we intend to keep the system going.
    Ms. Jewett. I think that you are right in that there may be 
a moral obligation. But there wouldn't be a legal obligation. 
And I could sense you were talking about the bridges. I don't 
remember whether there was a moral or a legal obligation in 
that particular situation, but----
    Mr. Costello. Well, we sure wouldn't shut the system down
    Ms. Jewett. No, you wouldn't shut the system down. And 
presumably, in this case, one, you would collect enough to have 
a coverage account on the side, possibly; two, if you found 
that you were in a position where revenues were falling short, 
you would restructure the debt. And that is the difference of 
what you can't do with Treasuries. You can't restructure that 
debt, but here you can restructure it to meet the revenues. 
And, third, you would have the policy board presumably having 
an ability to raise the fees and charges if you were getting to 
that point.
    Mr. Costello. Let me ask that question of the GAO or CBO.
    Mr. Marron. I am happy to jump in. I guess the framework I 
would say that to the extent that one is successful in setting 
up a structure that passes some risk on to private parties, 
they are going to ask you to pay for it in advance somehow in 
the compensation they get through the arrangement. So that, in 
essence, the Government will be paying for it through some 
other form. And then layer on top of that your concern, which 
is, after the fact, if something goes wrong, to the extent that 
something is a significant governmental undertaking, as you 
said, the Government will be on the hook for providing it 
anyway.
    Mr. Costello. Which brings me to another project that was 
recently privatized where a lot of money was paid up front for 
this company to take over this structure, and the money that 
was paid to the governmental entity was not set aside for 
infrastructure, it was used for other governmental purposes. I 
wonder if the GAO would want to comment, Dr. Irving or Dr. 
Dillingham?
    Mr. Irving. I think that Ms. Jewett's answer that there 
would be a moral obligation at the end answers that this is in 
effect the Government using another vehicle to borrow more 
expensively for what the Government could borrow. I actually do 
not understand the point about rigidity. I mean, the Treasury 
borrows at all kinds of maturities at the lowest rate possible.
    If you wanted to do the two-step version, where Treasury 
borrows from the Federal Financing Bank, the Federal Financing 
Bank has the ability to lend to agencies at quite different 
designs, in very different ways. It has a fair amount of 
flexibility. But it is still the Treasury going to the market. 
And there is the additional question of would you really want 
to hand to some private board the ability to impose what is 
called a user fee, but is in effect a tax?
    Mr. Costello. Dr. Dillingham?
    Mr. Dillingham. Again, that is about as far as I can go 
with it.
    Mr. Costello. Mr. Chairman, thank you. And I want to thank 
our witnesses.
    Mr. Mica. Well, thank you. Thank you also, Mr. Costello.
    I want to thank our witnesses.
    Now, we haven't answered how this is all going to be paid 
for or how it is all going to be designed and proposed at this 
juncture. We have answered a few questions, but we have raised 
a bunch of questions. I think the important thing is that we 
look at this as not only a challenge, but a great opportunity 
to create truly a next generation air traffic control system 
and aviation system for this Country and be on the cutting 
edge. And there are a lot of representatives in the audience 
from different organizations.
    Well, who is going to pay for it? Well, we are all going to 
pay for it. That guy in Podunk, we are going to figure out what 
his fair share is, and every one of you who is sitting here 
that has some interest in using and access this system are 
going to help pay for it.
    We are going to figure out a way to do that, stay ahead of 
the curve, and see how we can have, again, the very best system 
in the world and set the standard. The benefit will not only be 
for the United States, but think of the potential of having our 
system adopted around the world and again having us continue to 
keep and set the standard. So that is what we are going to do 
with Mr. Costello's help and all of you out there. If we have 
to drag you kicking and screaming across the finish line, we 
are going to do it.
    Mr. Costello moves that the record be left open for a 
period of two weeks for additional comments and pledges of your 
financial contributions towards this effort, statements, we 
welcome all of those.
    There being no further business to be before the 
Subcommittee today, I thank again our witnesses and everyone 
for being with us. This hearing is adjourned.
    [Whereupon, at 3:37 p.m., the subcommittee was adjourned.]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]





</pre></body></html>
